     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW., Suite 3T41
                                                                          Atlanta, GA 30303

November 25, 2009


Report Number: A-04-08-00047

Rhonda M. Medows, MD, FAAFP
Commissioner
Georgia Department of Community Health
2 Peachtree Street
Atlanta, Georgia 30303

Dear Dr. Medows:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Georgia’s Pandemic Influenza Expenditures for
the Period August 31, 2005, Through June 30, 2008.” We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-08-00047 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Dr. Rhonda M. Medows


Direct Reply to HHS Action Official:

Alan Kotch
Director, Procurement and Grants Office
Procurement and Grants Office (MS E-14)
Centers for Disease Control and Prevention
2920 Brandywine Road, Room 1122
Atlanta, Georgia 30341
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF GEORGIA’S PANDEMIC
INFLUENZA EXPENDITURES FOR THE
PERIOD AUGUST 31, 2005, THROUGH
         JUNE 30, 2008




                        Daniel R. Levinson
                         Inspector General

                         November 2009
                         A-04-08-00047
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Centers for Disease Control and Prevention (CDC) provides funding to States, territories,
and certain large cities through cooperative agreements to improve preparedness and response
capabilities for bioterrorism and other public health emergencies. Beginning in 2005, Congress
appropriated funds specifically to upgrade capabilities to prepare for and respond to pandemic
influenza (pan flu). Through the existing cooperative agreements, CDC awarded $500 million in
pan flu funding in three phases:

      In Phase I (August 31, 2005, through August 30, 2006), awardees were to identify unmet
       needs and develop and exercise a pan flu preparedness plan and an antiviral drug
       distribution plan.

      In Phase II (August 31, 2006, through August 30, 2007), awardees were to complete and
       submit to CDC the work plan and progress reports and develop a pan flu exercise
       schedule.

      In Phase III (August 31, 2007, through August 9, 2008), awardees were to fill gaps
       identified in Phases I and II.

For each phase, CDC issued to awardees supplemental guidance setting forth the deadline for
submitting a budget application to CDC and the required activities. The supplemental guidance
also required awardees to submit interim and final financial status reports that summarized the
amount of funding awarded, spent, and unspent for each phase.

In Georgia, the Division of Public Health, Office of Preparedness (the State agency), administers
the pan flu award. The State agency received a total of $13,969,079 in pan flu funding for the
three phases. Effective July 1, 2009, the Georgia Division of Public Health became a part of the
Georgia Department of Community Health (DCH).

For purposes of the Georgia Division of Public Health (of which the State agency is a part),
Georgia is divided into 18 health districts. As of June 30, 2008, the State agency had spent
$489,350 directly and had disbursed $4,427,738 in pan flu award funds to these health districts in
the form of Grants-in-Aid. Although the majority of the pan flu spending took place at the health
districts, the State agency is still accountable for these funds. Therefore, we distinguish between
State agency and health district expenditures when presenting the findings in each category of
cost.

OBJECTIVE

Our objective was to determine (1) the extent to which the State agency spent its pan flu funding
and (2) what types of costs it charged to the pan flu award and whether these costs complied with
Federal cost requirements.




                                                 i
SUMMARY OF RESULTS

As of June 30, 2008, the State agency had spent $4,917,088 of the $13,969,079 in pan flu
funding that it received from CDC. The unspent funds totaled $9,051,991, or 65 percent of the
cumulative awarded amount. The State agency attributed the unspent funds to delays in
receiving supplemental guidance and funding from CDC for Phases I and II and to conflicts
between the State budget year, grant budget year, and legislative requirements.

The State agency charged costs to the pan flu award in five major categories: compensation
costs, training costs, supply costs, advertising costs, and other costs, including employee travel,
rental fees associated with pan flu conferences, and lab equipment. We reviewed $2,886,898 of
the $4,917,088 that the State agency charged to the award and concluded that $2,507,490
complied with Federal cost requirements. The remaining $379,408 was not allowable.
Specifically, $254,870 was not adequately documented, and $124,538 did not meet Federal cost
requirements.

RECOMMENDATION

We recommend that the State agency amend the final pan flu financial status reports to refund
the $254,870 that lacked required documentation and to reverse the $124,538 in costs charged to
the pan flu award that did not meet Federal cost requirements.

GEORGIA DEPARTMENT OF COMMUNITY HEALTH COMMENTS

In written comments on our draft report, DCH agreed with a portion of our recommendation,
disagreed with a portion of our recommendation, and provided additional documentation to
support certain transactions reported as not allowable. DCH’s comments are included in their
entirety, except for the enclosures, as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Of the $489,042 originally determined not to be allowable, DCH agreed with $157,079 and
disagreed with $331,963. After reviewing the additional documentation provided, we
determined that an additional $109,634 was allowable, and we revised our findings and
recommendations accordingly.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Funding for Pandemic Influenza Preparedness and Response Activities................1
              Georgia Office of Preparedness ...............................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope........................................................................................................................2
               Methodology ............................................................................................................3

RESULTS OF REVIEW ...............................................................................................................4

          UNSPENT FUNDS .............................................................................................................4

          COSTS CHARGED TO AWARD ......................................................................................5
               Compensation Costs.................................................................................................6
               Training Costs..........................................................................................................6
               Supply Costs ............................................................................................................7
               Advertising Costs.....................................................................................................7
               Other Costs...............................................................................................................8

          RECOMMENDATION .......................................................................................................8

          GEORGIA DEPARTMENT OF COMMUNITY HEALTH COMMENTS.......................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................9

APPENDIXES

          A – GEORGIA’S PANDEMIC INFLUENZA FUNDS, BY CATEGORY

          B – AUDIT REVIEW COVERAGE OF GEORGIA’S PANDEMIC INFLUENZA
               COSTS

          C – GEORGIA DEPARTMENT OF COMMUNITY HEALTH COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Funding for Pandemic Influenza Preparedness and Response Activities

Since 1999, the U.S. Department of Health and Human Services, Centers for Disease Control
and Prevention (CDC), has provided funding to 62 jurisdictions (States, territories, and certain
large cities) through cooperative agreements to improve preparedness and response capabilities
for bioterrorism and other public health emergencies. Beginning in 2005, Congress appropriated
funds specifically to upgrade capabilities to prepare for and respond to pandemic influenza (pan
flu). Through the existing cooperative agreements, CDC awarded $500 million in pan flu
funding in three phases: 1

       In Phase I (August 31, 2005, through August 30, 2006), awardees were to identify unmet
        needs and develop and exercise a pan flu preparedness plan and an antiviral drug
        distribution plan.

       In Phase II (August 31, 2006, through August 30, 2007), awardees were to complete and
        submit to CDC a work plan and progress reports and develop a pan flu exercise schedule.

       In Phase III (August 31, 2007, through August 9, 2008), awardees were to fill gaps
        identified in Phases I and II.

For each phase, CDC issued to awardees supplemental guidance setting forth the deadline for
submitting a budget application to CDC and the required activities. The supplemental guidance
also required awardees to submit interim and final financial status reports (FSR) that summarized
the amount of funding awarded, spent, and unspent for each phase.

For the current cooperative agreement budget year (August 10, 2008, through August 9, 2009),
CDC has not provided any funding specifically for pan flu activities even though CDC requires
awardees to continue these activities. At the end of our fieldwork, CDC was still considering
awardees’ requests to carry forward unspent pan flu funds from Phases II and III into the current
budget year.




1
 CDC has cited various authorities for the bioterrorism program and the pan flu supplement. Initially, CDC’s grant
announcements for the bioterrorism program provided that funding was authorized under sections 301(a),
317(k)(1)(2), and 319 of the Public Health Service (PHS) Act (42 U.S.C. §§ 241(a), 247b(k)(1)(2), and 247(d)).
Beginning in August 2005, CDC provided that funding was authorized under section 319C of the PHS Act (42
U.S.C. § 247d-3), which was subsequently repealed by the Pandemic and All-Hazards Preparedness Act, P.L. No.
109-417 (Dec. 19, 2006). The pan flu grant announcements and guidance do not consistently describe the statutory
authorizations, but the CDC grant award documents list sections 301(a), 317(k)(1)(2), and 319 of the PHS Act for
Phases I and II and sections 319(a) and 317(k) of the PHS Act for Phase III. CDC is currently relying on section
319C-1 of the PHS Act (42 U.S.C. § 247d-3a) for all of these grant awards.


                                                         1
Georgia Office of Preparedness

In Georgia, the Division of Public Health, Office of Preparedness (the State agency), administers
the pan flu award. Effective July 1, 2009, the Georgia Division of Public Health became a part
of the Georgia Department of Community Health (DCH). The State agency received a total of
$13,969,079 in pan flu funding for the three phases. CDC approved the State agency’s requests
to carry forward unspent pan flu funds from Phases I through III into future budget years as part
of CDC’s funding for general public health emergency preparedness and response.

For purposes of the Georgia Department of Public Health (of which the State agency is a part),
Georgia is divided into 18 health districts. As of June 30, 2008, the State agency had spent
$489,350 directly and had disbursed $4,427,738 in pan flu award funds to these health districts in
the form of Grants-in-Aid. 2 We distinguish between State agency and health district
expenditures when presenting the findings in each category of cost.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine (1) the extent to which the State agency spent its pan flu funding
and (2) what types of costs it charged to the pan flu award and whether these costs complied with
Federal cost requirements.

Scope

We analyzed the State agency’s pan flu funding of $13,969,079 for Phases I through III and pan
flu expenditures of $4,917,088 incurred for the period August 31, 2005, through June 30, 2008.
Of the $4,917,088 expenditures incurred, we reviewed for allowability $2,886,898, composed of
$489,350 spent directly by the State agency and $2,397,548 spent by 8 of the 18 health districts.

We reviewed the State agency’s accounting system to determine how funds were recorded and
segregated and whether funds were spent for allowable activities and costs under Federal
requirements, the cooperative agreement, and the supplemental pan flu guidance. We limited our
review of internal controls to the process that the State agency used to claim pan flu funds.

We performed our fieldwork from May 2008 through June 2009 at the State agency in Atlanta,
Georgia, and at Georgia Health Districts in Rome, Brunswick, Lawrenceville, Macon, Waycross,
Gainesville, Augusta, and Albany, Georgia.




2
    Some health districts subsequently allocated pan flu funds to individual counties comprising the health district.



                                                              2
Methodology

To accomplish our objective, we:

      reviewed applicable Federal regulations, the cooperative agreement, the supplemental
       pan flu guidance, pan flu budget applications, and the State agency’s accounting policies
       and procedures;

      reviewed the State agency’s chart of accounts, related account descriptions, and
       accounting records to gain an understanding of how the State agency accounted for its
       pan flu expenditures;

      reconciled the CDC-approved pan flu budget application for each phase to the State
       agency’s summary expenditure reports to determine the extent to which the State spent its
       pan flu funding;

      analyzed the State agency’s summary expenditure reports and reconciled all summarized
       costs to detailed transaction listings;

      distinguished expenditures as either State agency or health district expenditures and:

           o selected a judgmental sample of eight health districts for review and traced the
             expenditures to supporting documentation,

           o selected a judgmental sample of state expenditures and traced the expenditures to
             supporting documentation, and

           o categorized expenditures as compensation, training, supplies, advertising, or other
             costs;

      reconciled the State agency’s summary expenditure reports to the FSRs submitted to
       CDC as of June 30, 2008; and

      discussed our findings with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3
                                         RESULTS OF REVIEW

As of June 30, 2008, the State agency had spent $4,917,088 3 of the $13,969,079 in pan flu
funding that it received from CDC. The unspent funds totaled $9,051,991, or 65 percent of the
cumulative awarded amount. The State agency attributed the unspent funds to delays in
receiving supplemental guidance and funding from CDC for Phases I and II and to conflicts
between the State budget year, grant budget year, and legislative requirements.

The State agency charged costs to the pan flu award in five major categories: compensation
costs, training costs, supply costs, advertising costs, and other costs, including employee travel,
rental fees associated with pan flu conferences, and lab equipment. We reviewed $2,886,898 of
the $4,917,088 that the State agency charged to the award and concluded that $2,507,490
complied with Federal cost requirements. The remaining $379,408 was not allowable.
Specifically, $254,870 was not adequately documented, and $124,538 did not meet Federal cost
requirements.

UNSPENT FUNDS

Federal regulations (45 CFR § 92.23(a)) require a grantee to charge to the award only those costs
that result from obligations of the funding period unless the awarding agency permits the grantee
to carry over unobligated balances into the subsequent funding period.

As of June 30, 2008, the State agency had not spent $9,051,991of the $13,969,079 (Appendix A)
awarded for pan flu activities:

       Phase I: CDC awarded $2,609,920. The State agency spent $726,770 during Phase I and
        carried forward, with CDC’s approval, $1,883,150 of unspent pan flu funds.

       Phase II: CDC awarded $6,433,307. The State agency spent $2,516,851 during Phase II
        and carried forward, with CDC’s approval, $3,916,456 of unspent pan flu funds.

       Phase III: CDC awarded $4,925,852. The State agency spent $1,673,467 and still had
        $3,252,385 in unspent funds as of June 30, 2008, 40 days before Phase III ended.

State agency officials said that delays in receiving supplemental guidance and funding from
CDC for Phases I and II were a major factor contributing to the unspent funds. Because the
periods between the issuance of guidance and the award of funding were compressed, the State
agency may not have had adequate time to determine how best to spend the funds. The table
below shows the timing of the awards.




3
 This amount represents the totals shown on the State agency’s interim FSRs for Phases I and II and the State
agency’s summary expenditure reports through June 30, 2008. The State did not submit “Final” FSRs until July 10,
2009, which is over a year after the June 30, 2008, audit period cutoff. Also, according to the grant documents,
“Final” FSRs should have been submitted 90 days after each budget period (i.e., 11/30/06, 11/30/07, and 11/9/08).



                                                        4
                                         Timing of Pan Flu Awards

                                                                       Budget
                                                   Guidance                                  Funds
                           Budget Year                               Application
                                                    Issued                                  Awarded 4
                                                                      Deadline

        Phase I         08/31/05–08/30/06           03/14/06           04/08/06              03/07/06

        Phase II        08/31/06–08/30/07           07/10/06           07/15/06 5            09/25/06

        Phase III       08/31/07–08/09/08           09/21/07           10/24/07              09/25/07

Congress appropriated pan flu funding in December 2005. CDC issued Phase I guidance to
awardees in March 2006, which was more than 6 months into the budget year. The State agency
received the guidance and funding from CDC for both Phase I and Phase II within a 6-month
period. In addition, the deadline for the Phase II budget application was only 5 days after the
State agency received new and more comprehensive pan flu guidance from CDC. As a result,
the State agency had little time to determine how best to allocate and spend the funds.

In Georgia, the State Legislature must approve the State agency’s budget each year during the
legislative session, which runs from January through April. The State agency received Phase I
funding halfway through the legislative session, thus leaving less than 2 months for the State
agency to gain the legislature’s approval of the Phase I budget. Additionally, the State fiscal
year runs from July 1 through June 30, and year-end closeout interrupts program spending during
the final months of each grant year. These additional State-imposed requirements for budget
approval and spending compounded the problems caused by the accelerated spending
requirements of the pan flu awards. Additionally, the State is divided into 18 health districts, and
once guidance was received at the State level, it still had to be disseminated to all districts.
Furthermore, some health districts delegated pan flu responsibility to the county level, thus
creating another layer through which the guidance had to pass before reaching the entity
spending the money.

COSTS CHARGED TO AWARD

Federal cost principles applicable to States, now codified in regulations (2 CFR part 225, “Cost
Principles for State, Local, and Indian Tribal Governments,” Appendix A) (Office of
Management and Budget Circular A-87), establish principles for determining the allowability of
costs. These principles state that to be allowable under Federal awards, costs must be: necessary

4
 The “funds awarded” date represents the date of the original award. CDC project officers authorized the release of
funds on various subsequent dates contingent on the project officers’ review and approval of States’ detailed
budgets.
5
 Pursuant to “Public Health Preparedness and Response Cooperative Agreement AA154,” the initial budget
application deadline was July 15, 2006. CDC allowed States to submit revised Phase II spending plans until
August 31, 2006.



                                                         5
and reasonable for the proper and efficient performance and administration of Federal awards;
must be allocable to Federal awards under the provisions of 2 CFR part 225; must be adequately
documented; and must be net of applicable credits. 6

The $4,917,088 that the State agency charged to the pan flu award consisted of compensation
costs, training costs, supply costs, advertising costs, and other costs, including employee travel,
rental fees associated with pan flu conferences, and lab equipment. Of this amount, we reviewed
$2,886,898 and concluded that $2,507,490 complied with Federal cost requirements. The
remaining $379,408 was not allowable. (See Appendix B.) Specifically, $254,870 was not
adequately documented and $124,538 did not meet Federal cost requirements.

Compensation Costs

The State agency ($30,741) and the eight health districts ($829,606) charged $860,347 to the pan
flu award for compensation costs (salaries and fringe benefits).

The State employees appropriately allocated their time to developing and organizing pan flu
activities. Their compensation costs, which totaled $30,741, were properly supported by signed
and approved timesheets or time certifications and were allowable under the award.

Most of the $829,606 in compensation costs charged by the health districts was for individuals
who were not health district employees; instead, they were police officers, firefighters, and
emergency health care professionals who assisted, on a limited basis, in conducting drills and
exercises required under the pan flu award. Of the $829,606 in compensation costs reviewed at
the health districts, $677,259 was allowable, $144,774 was not adequately documented as
required by 2 CFR part 225, Appendix A, section C.1.j., and $7,573 did not meet other basic
guidelines of section C. For example, subsection C.3.a. states: “A cost is allocable to a
particular cost objective if the goods or services are chargeable or assignable to such cost
objective in accordance with the relative benefits received.” One health district charged $7,308
to the pan flu award for compensation costs that should have been charged to other programs
(either the Emergency Response and Preparedness for Bioterrorism program or the Hospital
Community Emergency Planning Preparedness and Response Coordination program). Because
these costs were not specifically identifiable with the pan flu award and cost objective, they were
unallowable.

Training Costs

The State agency ($335,799) and the eight health districts ($332,051) charged $667,850 to the
pan flu award for training costs. Included in this category were costs associated with both
training and meetings held to establish pan flu response plans. These costs included:

          purchasing, developing, and reproducing training material;

          providing technical assistance to counties and health districts on how to develop pan flu
           response plans;

6
    See 2 CFR part 225, App. A, section C.


                                                    6
      meetings to establish a Pandemic Preparedness Coordinating Committee;

      conducting a series of orientation seminars in each county;

      conducting a tabletop exercise related to each county’s pan flu plan;

      developing EMS-related pan flu plans and documents; and

      developing and coordinating pan flu exercises.

The State agency properly documented and supported the $335,799 in training costs that it
charged to the pan flu award. However, the health districts did not always meet Federal cost
requirements when they charged training costs to the pan flu award. Of the $332,051 in training
costs reviewed at the health districts, $248,611 was allowable, $47,732 was not adequately
documented as required by 2 CFR part 225, Appendix A, section C.1.j., and $35,708 did not
meet other basic guidelines of section C. For example, subsection C.4.a. states: “Applicable
credits . . . shall be credited to the Federal award either as a cost reduction or cash refund, as
appropriate.” In one health district, a county used pan flu funds to support hosting a pan flu
exercise and charged each attendee a $200 registration fee. Contrary to the regulations, the
registration fee revenue, totaling $35,200, was not treated as an applicable credit or used to
reduce cost.

Supply Costs

The eight health districts reviewed charged $438,025 to the pan flu award for supply costs.
These costs included: office supplies, small equipment purchases, and refreshments for meetings
and exercises. Of the $438,025 reviewed, $414,701 was allowable, $7,183 was not adequately
documented as required by 2 CFR part 225, Appendix A, section C.1.j., and $16,141 did not
meet other basic guidelines of section C. For example, subsection C.3.a. states: “A cost is
allocable to a particular cost objective if the goods or services are chargeable or assignable to
such cost objective in accordance with the relative benefits received.” Costs associated with the
shirts for staff working in the pan flu area were allowable; $9,661 of costs associated with the
shirts for staff not specifically identifiable with the pan flu award and cost objective were
unallowable.

Advertising Costs

The State agency ($14,935) and the eight health districts ($268,413) charged $283,348 to the pan
flu award for advertising costs. Advertising was used to provide information to increase the
community awareness and knowledge of pan flu, preparedness measures, and outbreak response,
as well as public health roles and responsibilities related to pan flu planning and response. The
$14,935 the State agency charged to the plan flu award for advertising costs was properly
documented and allowable under the award. Of the $268,413 in advertising costs reviewed at
the eight health districts, $248,879 was allowable, $720 was not adequately documented as
required by 2 CFR part 225, Appendix A, section C.1.j., and $18,814 did not meet other basic
guidelines of section C. For example, subsection C.3.a. states: “A cost is allocable to a
particular cost objective if the goods or services are chargeable or assignable to such cost


                                                7
objective in accordance with the relative benefits received.” One health district charged $9,409
for general billboard and newspaper advertising related to non-pandemic flu immunization
programs. Since these costs were not specifically identifiable with the pan flu award and cost
objective, they were unallowable.

Other Costs

The State agency ($107,875) and the eight health districts ($529,453) charged $637,328 to the
pan flu award for other costs. These costs included employee travel, rental fees associated with
pan flu conferences, and lab equipment. Of the $107,875 the State agency charged to the pan flu
award, $83,805 was properly documented and allowable under the award, and $24,070 did not
meet Federal cost requirements because it should have been charged to the State’s Babies Born
Healthy program. Of the $529,453 that the health districts charged to the pan flu award,
$452,760 was allowable, $54,461 was not adequately documented as required by 2 CFR part
225, Appendix A, section C.1.j., and $22,232 did not meet other basic guidelines of section C.
For example, subsection C.3.a. states: “A cost is allocable to a particular cost objective if the
goods or services are chargeable or assignable to such cost objective in accordance with the
relative benefits received.” Two counties within one health district used $10,992 of the pan flu
funds awarded for the purchase of copiers. Since these costs were not specifically identifiable
with the pan flu award and cost objective, they were unallowable.

RECOMMENDATION

We recommend that the State agency amend the final pan flu financial status reports to refund
the $254,870 that lacked required documentation and to reverse the $124,538 in costs charged to
the pan flu award that did not meet Federal cost requirements.

GEORGIA DEPARTMENT OF COMMUNITY HEALTH COMMENTS

In written comments on our draft report, DCH agreed with a portion of our recommendation,
disagreed with a portion of our recommendation, and provided additional documentation to
support certain transactions reported as not allowable. 7 DCH requested reinstatement of
unallowable costs on the basis that the districts used fixed price contracts instead of traditional
cost type contracts. DCH contended that these costs were necessary and reasonable for the
proper and efficient performance and administration of the Federal award, were authorized and
allocable under 2 CFR part 225, and were determined acceptable by independent auditors of the
counties’ financial statements. DCH’s comments are included in their entirety, except for the
enclosures, as Appendix C.




7
Effective July 1, 2009, the Georgia Division of Public Health became a part of the Department of Community
Health; the Commissioner of the Department of Community Health provided the comments to our draft report.


                                                       8
OFFICE OF INSPECTOR GENERAL RESPONSE

Of the $489,042 originally determined not to be allowable, DCH agreed with $157,079 and
disagreed with $331,963. After reviewing the additional documentation provided, we
determined that an additional $109,634 was allowable, and we revised our findings and
recommendations accordingly. However, our findings regarding the remaining $222,329 in
unallowable costs between the health districts and the counties within those health districts
remain unchanged because the counties did not support these expenditures.

DCH maintained that the fixed price contracts eliminated the requirement for cost documentation
as long as the deliverables were met. In our opinion, however, the contracts in question did not
constitute traditional contracts because they did not contain, among other things, a specific
service or product to be provided, a price term, and disputes terms. These contracts were in form
and function more closely related to grants than contracts, and the counties functioned as
subgrantees. Therefore, the counties were required to maintain adequate documentation of
expenditures in accordance with 2 CFR part 225.




                                                9
APPENDIXES
APPENDIX A: GEORGIA'S PANDEMIC INFLUENZA FUNDS, BY CATEGORY 

                   August 31, 200S-June 30, 2008




        Category           Total Awarded     Total Spent    Difference
  Personnel                       $160,382        $65,610       $94,772
  Fringe benefits                   12,269            951        ll,318
  Equipment                         92,060                       92,060
  Supplies                         165,040                      165,040
  Travel                            15,509          3,404        12,105
  Other                          3,683,472      4,480,188     (796,716)
  Contracts                      9,146,515        366,935     8,779,580
    Total direct cost          $13,275,247     $4,917,088    $8,358,159
    Total indirect costs           693,832                      693,832
      Total award              $13,969,079     $4,917,088    $9,051,991
              APPENDIX B: AUDIT REVIEW COVERAGE OF 

               GEORGIA'S PANDEMIC INFLUENZA COSTS 

                     August 31, 200S-Juue 30, 2008 





       CateS°!l     Total Reviewed    Total Allowable   Total Unallowable
Compensation               $860,347          $708,000            $152,347
Training                    667,850           584,410               83,440
Supplies                    438,025           414,701              23,324
Advertising                 283,348           263,814               19,534
Other                       637,328           536,565             100,763
Total                   $2,886,898         $2,507,490            $379,408
                                                                                                                      Page 1 of2

APPENDIX C: GEORGIA DEPARTMENT OF COMMUNITY HEALTH COMMENTS




           ~I "EO"", ))r.P'\RTM~NT or
               COMMU !>'ITY H UITlt
                                                                                       Office of Audits. 16-202
                                                                                       2 Peachtree Street, NW
                                                                                       Atlanta, GA 30303-3159
   Rhonda M. Mellows, MD, CQmmi.s.sioller        SoImy Perdue, Governor                www.dch.georgia.gov


                                                  September 18, 2009


   Mr. Peter J. Barbera
   Regional Inspector General
   For Audit Services
   Region IV
   61 Forsyth Street, s.W. Suile 3T41
   Atlanta, GA 30303

   SUbject: Repon Number A...{)4-08-OO047 dated AUb'Ust 27. 2009

   Dear Mr. Barbera:

   As requested by your Ictter the Department ofCommunity I-Iealth 's (DCH) comments arc provided in
   column "$" on file "Pan Flu Exceplions83 109fromOIGver2" orlhe attached Microsoft Excel
   spreadsheet. Column "S" is highlighted in yellow to make it easier to read and understand. As the
   documentation shows, DCH is requesting reinstatement of$153,235.63 in Compensation, $66,719.47 in
   Training, $ 16,350.22 in Advertising and $43,574.43 in Other Costs. Most of the reinslatements come
   from the areas marked on your spreadsheet as Gainesville, Macon and Waycross. These disagreements
   center around the districts' usc of fixed price contracts (Performance) verses the more traditional cost
   type contracts. The districts in question chose fixed price contracts for the following reasons:

          I . 	 Performance risk is with the contracted county.
          2. 	 County could lose or make money based on the work required for the Pandemic Flu exercises
          3. 	 County's profit or loss is not regulated
          4. 	 1be accounting system at the county level did not allow for tracking of award dollars; all
                funds go into a fund called the general fund.
          5. 	 The districts and counties lack the manpower and training to verify the cost
                reasonablencsslrealism of the work required Under FAR \S.305(aX I) the district would
                have been required to conduct a cost realism analysis to determine what the government
                should realistically pay for the proposed effort, the county's understanding of the work, and
                the county's ability to perform the work. Because of the time frame involved from COC and
                the state, the districts chose the most cost effective method at their disposal . These contracts
                also t:1iminatoo lhI: requirt:mt:nt rOT ~ost r.kx;umt:ntation as long as tht: ddivt:rabks wert: met
                by the counties. The deliverables were met since Georgia has significantly improved its
                ability to respond to a Pandemic at the district and county level. This is presently being
                proven under the HINt influenza outbreak.
                                                                                                         Page 2 of2




DCH contends thai the contracts in question were necessary and reasonable for the proper and efficient
perfonnance and administration of f'ederai awards. The contracts were authorized and allocable under
the provisions of2 CFR Pan 225 and were detennined acceptable by independent auditors of the
counties fi nancial statements.

OCH agrees with your assessment of unspent funds and your analysis of the timing and of the guidance
issued by Center of Disease Control (CDC). It was this liming and lack of guidance from CDC which
contributed to some of the confusion in the program.

Documentation on most ofthe items marked in yellow in column "S" was forwarded to the OIG in
April-May 2009 timeframe. However, additional documentation marked as appendixes A through E and
in Microsoft Excel spreadsheets that support our asse rtions are sitting in our Emergency Preparedness
Offices at 40 Pryor SITeet, Atlanta. Georgia. OCH would be more than happy to bring them 10 your
office for reviewal your convenience.

If you havc any questions or comments about DCH's response, plcase call Bruce Jeffries, Acti ng 

Director Office of Emergency Preparedness, at (404)597.9869 or through e·mail at 

hbjeffries@dhr.slate.ga.usorRobe rtGaupohl,AuditManager, at (404) 463·8960 or through c-mail al
nvgauspo@dht.state.ga.us.


Si ncerely,




~~~
Enclosures:

Microsoll Excel Spreadsheets 

Appendixes A - E 





                                                   2
